 

C"OCKLE

2311 Douglas Street A : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs

contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-1189
BPP.L.C., et al.,
Petitioners,
v.
MAYOR AND CITY COUNCIL OF BALTIMORE,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE ENERGY POLICY ADVOCATES IN SUPPORT OF THE PETITIONERS FILED BY
CONSENT OF ALL PARTIES in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 5113 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 30th day of April, 2020.
T am duly authorized under the laws of the State of Nebraska to administer oaths.

B age Loos Ondiawh: Bh

My Comm. Exp. Septeriber 5, 2023
Notary Public Affiant

 

39742
